                                  UNCLASSIFIED




           Critical Infrastructure Protection:
           The Department Can Enhance Its
             International Leadership and
                 Its Own Cyber Security



                Report Number 01-IT-R-044, June 2001




OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001   43


                                  UNCLASSIFIED
                       UNCLASSIFIED



Table of Cont ents
         Contents


                 EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               1
                 Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
                 Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
                 Results in Brief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    2
                 Principal Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      3
                 Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           5
                 Department Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               6
                 PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                 BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                 FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      13
                 Foreign Affairs Lead Agency . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 13
                 Critical Infrastructure Protection Plan . . . . . . . . . . . . . . . . . . . .                     22
                 LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . .                         35
                 ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
                 APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40




40     OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                       UNCLASSIFIED
                                  UNCLASSIFIED



Ex ecutiv
Executiv
   ecutivee Summary
            Summary
Purpose                        The Office of Inspector General (OIG) assessed the Department
                               of State’s (Department’s) progress in carrying out its Presidential
                               Decision Directive (PDD)1 63 responsibilities for cyber critical in-
                               frastructure protection (CIP) during fiscal years 1998-2000.
                                   Our objectives were to assess the Department’s:
                                   • Foreign Affairs Lead Agency activities under PDD-63;
                                   • Critical Infrastructure Protection Plan (CIPP) development
                                     and implementation;
                                   • minimum-essential cyber infrastructure vulnerability and risk
                                     assessments; and
                                   • risk mitigation, emergency management, interagency security,
                                     resource requirements, and awareness and training policies
                                     and practices.
                                   We identified additional steps the Department can take to ad-
                               dress its PDD-63 Foreign Affairs Lead Agency and minimum-es-
                               sential cyber infrastructure2 responsibilities.
                                  We conducted the review in conjunction with a President’s
                               Council on Integrity and Efficiency assessment of PDD-63 imple-
                               mentation at several Federal departments and agencies.



Background                     President Clinton issued PDD-63 to establish a national effort to
                               ensure the security of the critical infrastructure of the United
                               States.3 Under PDD-63, the Department is responsible for protect-
                               ing those of its facilities, people, and systems that it deems essential
                               to national critical infrastructure, and for being the Foreign Affairs
                               Lead Agency.



                                   1
                                     Presidential Decision Directives were renamed National Security Presiden-
                               tial Directives after we finished our review.
                                   2
                                     Minimum-essential cyber infrastructure supports core mission processes,
                               which support national security and government continuity.
                                   3
                                      Critical infrastructure consists of physical and cyber systems and assets that
                               are so vital to the United States that their incapacity would debilitate national
                               security, national economic security, or national public health and safety.

OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                                        1


                                  UNCLASSIFIED
                                  UNCLASSIFIED


                                   The Under Secretary for Management designated the Assis-
                             tant Secretary of International Narcotics and Law Enforcement
                             Affairs (INL) to be the Foreign Affairs Functional Coordinator.
                             The Coordinator subsequently chaired the Subgroup on Interna-
                             tional Cooperation of the National Security Council (NSC) Critical
                             Infrastructure Coordination Group.4 The Subgroup is a forum for
                             U.S. Government agencies to use in assessing and responding to
                             international CIP issues.
                                  Internally, the Under Secretary for Management established
                             three organizations to address PDD-63 – the Virtual Governance
                             Board, the Vulnerability Assessment Working Group,5 and the Secu-
                             rity Infrastructure Working Group. These organizations coordinate
                             and implement the CIPP, the Integrated Systems Security Manage-
                             ment Plan, and the Comprehensive Risk Management Plan, respec-
                             tively.



Results in Brief             PDD-63 directs the Department as Foreign Affairs Lead Agency to
                             implement an international outreach strategy to safeguard U.S. and
                             global critical infrastructures upon which the U.S. depends. The
                             Department’s Foreign Affairs Functional Coordinator started by
                             issuing an international outreach plan in August 2000. The plan
                             focuses on addressing international law enforcement issues involv-
                             ing a few countries. Although this focus on catching cyber terror-
                             ists and criminals is a commendable beginning, the approach does
                             not address the PDD-63 principles of encouraging friendly and
                             like-minded nations, international organizations, and multinational
                             corporations to focus on global preventative measures.
                                During February and April 1999 the Department issued its
                             CIPP and started its vulnerability assessment process, respectively.
                             The CIPP contains 11 objectives, which address PDD-63 require-



                                 4
                                   President Bush reconstituted the Critical Infrastructure Coordination Group
                             and three other groups into the NSC Policy Coordination Committee on Counter-
                             Terrorism and National Preparedness after we completed our review.
                                 5
                                    The Department established the Vulnerability Assessment Working Group
                             in February 1999, with responsibilities for identifying minimum-essential processes,
                             core processes, and critical resources. The Chairperson for the Vulnerability As-
                             sessment Working Group is a representative of the Bureau of Diplomatic Secu-
                             rity.


2                  OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                                  UNCLASSIFIED
                                  UNCLASSIFIED


                               ments for minimum-essential infrastructure, vulnerability assess-
                               ments, risk analysis and remediation, warning systems, response ca-
                               pabilities, reconstitution plans, and education and awareness pro-
                               grams. Although the Department has established a workable frame-
                               work for protecting its minimum-essential infrastructure, its CIPP
                               and vulnerability assessment process fall short of what PDD-63
                               requires.



Principal Findings             Foreign Affairs Lead Agency

                               Strengthening International Critical Infrastructure
                               Protection

                               The Subgroup on International Cooperation of the NSC Critical
                               Infrastructure Coordination Group has embraced a limited strategy
                               focusing on the extent to which the United States depends on the
                               infrastructure, economy, or government of other countries. PDD-
                               63 states that the United States will promote international coopera-
                               tion to help manage the worldwide CIP problem through joint re-
                               sponsibility among like-minded and friendly nations, international
                               organizations, and multinational corporations. It further states the
                               Federal Government must focus on preventative measures, and
                               threat and crisis management, to provide maximum feasible security
                               for at risk infrastructures.
                                   Although worldwide cooperation is often difficult, the United
                               States could provide broader CIP leadership because of its greater
                               experience and expertise in addressing cyber security issues. Such
                               an effort could include encouraging the Department’s missions,
                               other Federal agencies, international trade and business groups, and
                               multilateral international organizations to seek ways to strengthen
                               the CIP of other countries through preventative measures.

                               Law Enforcement Assistance

                               The countries we visited are strengthening their cyber criminal laws,
                               investigation and prosecution organizations, and international ties
                               for conducting investigations. However, law enforcement officials
                               face two major problems in conducting international investigations.
                               First, criminal laws and procedures vary among countries. Second,
                               obtaining support from foreign law enforcement agencies is often
                               difficult and time consuming. The Department, as the Foreign Af-

OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                       3


                                  UNCLASSIFIED
                  UNCLASSIFIED


              fairs Lead Agency, could enhance the positive efforts of other
              countries to fight cyber crime by assisting friendly and like-minded
              foreign law enforcement organizations obtain additional cyber train-
              ing and technical assistance, and by helping establish improved in-
              ternational communication channels for processing requests for
              assistance and access to evidence.

              Critical Infrastructure Protection Plan

              Department’s Foreign Operations

              The Department’s CIPP and vulnerability assessments did not ad-
              dress the Department’s minimum-essential infrastructure overseas,
              nor the role and responsibilities of its Chiefs of Mission in protect-
              ing that infrastructure. Foreign operations are essential to U.S.
              Government foreign policy and relations, national defense, and U.S.
              interests abroad.

              Periodically Assessing Security Controls

              PDD-63 requires periodic review of the reliability, vulnerability, and
              threat environment of minimum-essential cyber infrastructure to
              ensure organizations are addressing changing technology and
              threats with appropriate protective measures and responses. Office
              of Management and Budget (OMB) Circular No. A-130, Appendix
              III requires all Federal agencies evaluate the security controls of all
              their automated information systems at least once every 3 years.
              Because the Department’s CIPP and related policies do not address
              this requirement, it has not developed a schedule for testing mini-
              mum essential cyber infrastructure for security controls vulnerabili-
              ties.

              Critical Interagency Systems Vulnerabilities

              The National Plan for Information Systems Protection, promul-
              gated by President Clinton last year, has a focus on shared cyber
              security interdependencies and vulnerabilities among agencies. The
              Department’s vulnerability assessment did not address the cyber
              security interdependencies and vulnerabilities it shares with other
              organizations.




4   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                  UNCLASSIFIED
                                  UNCLASSIFIED


                               Security awareness and training policies, practices,
                               and procedures
                               The Department had not complied with Computer Security Act of
                               1987 and related Federal policies that mandate annual security
                               awareness, training and education for employees in accepted secu-
                               rity practices relevant to their individual roles and responsibilities.
                               Implementing well-organized approaches to ensuring all employees
                               receive required security awareness, training and education when
                               required will strengthen the Department’s security readiness.



Recommendations                Foreign Affairs Lead Agency
                               We recommend the Foreign Affairs Functional Coordinator, with
                               assistance from the Department’s International Information Pro-
                               grams Coordinator, take the following steps:
                                     • encourage multilateral cooperation, contingency planning,
                                       and open exchange of public information with a wide
                                       range of friendly and like-minded countries, international
                                       organizations, and multinational corporations;
                                     • provide bureaus and posts with public information to
                                       assist friendly and like-minded foreign governments in
                                       strengthening their CIP; and
                                     • emphasize encouraging and coordinating the efforts of
                                       other U.S. Government lead agencies in informing and
                                       assisting a wide range of friendly and like-minded
                                       countries to better defend themselves against cyber
                                       attacks.

                               Critical Infrastructure Protection Plan

                               We recommend that:
                                     • The Chief Information Officer and the Assistant
                                       Secretary for Diplomatic Security address the
                                       Department’s foreign operations in subsequent critical
                                       infrastructure protection plans and vulnerability
                                       assessments. In doing so, other agencies with overseas
                                       presence should be included in developing the overseas
                                       portion of the plans, and conducting and assessing the
                                       overseas portion of the vulnerability assessments as
                                       appropriate.


OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                          5


                                  UNCLASSIFIED
                           UNCLASSIFIED


                           • The Assistant Secretary for Diplomatic Security schedule and
                             conduct security controls evaluations of all minimum-
                             essential cyber infrastructures at least once every 3 years as
                             required by OMB Circular No. A-130, Appendix III for all
                             automated information systems.
                           • The Assistant Secretary for Diplomatic Security amend 12
                             Foreign Affairs Manual (FAM) 600 and the Bureau of
                             Information Resource Management (IRM) amend the critical
                             infrastructure protection plan to require security control
                             evaluations of minimum-essential cyber infrastructure at least
                             once every 3 years.
                           • The Chief Information Officer and the Assistant Secretary
                             for Diplomatic Security ensure that subsequent critical
                             infrastructure protection plans and vulnerability assessments
                             address minimum-essential interagency infrastructure
                             vulnerabilities.

                       Employee Security Awareness, Training and
                       Education

                       We make 10 recommendations, principally to the Assistant Secre-
                       tary for Diplomatic Security, to conform the Department’s em-
                       ployee security awareness, training and education policies, practices,
                       and procedures, as stated in 12 FAM 600, with all relevant require-
                       ments of the Computer Security Act of 1987 and related U.S. Gov-
                       ernment policies.



Department             We provided the relevant Bureaus with a draft of this report for
Comments               their review and comments. Generally, the Bureaus agreed with our
                       report’s findings and recommendations. However, in response to
                       the Bureau of International Narcotics and Law Enforcement Af-
                       fairs concerns that the report did not properly characterize the
                       Department’s international outreach strategy, we added information
                       to support the need for a broader strategy addressing global critical
                       infrastructure protection. The comments of the bureaus are ad-
                       dressed in the Findings Section of the report, and included in their
                       entirety in Appendix E through H.




6            OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                           UNCLASSIFIED
                                  UNCLASSIFIED



Pur pose and Scope
Purpose

                               We conducted this review to assess the Department’s progress in
                               meeting its PDD-63 responsibilities, as they relate to minimum-es-
                               sential cyber infrastructure.6 We assessed the Department’s:
                                   • Foreign Affairs Lead Agency activities under PDD-63,
                                   • Critical Infrastructure Protection Plan development and
                                     implementation;
                                   • minimum-essential cyber infrastructure vulnerability and risk
                                     assessments; and
                                   • risk mitigation, emergency management, interagency security,
                                     resource requirements, and awareness and training policies
                                     and practices.
                                  We conducted the review in conjunction with an assessment of
                               PDD-63 implementation by the President’s Council on Integrity
                               and Efficiency at several departments and agencies.
                                    We did not test the Department’s information security controls
                               during this evaluation, but instead relied on the results of earlier
                               reviews (see Appendix B). Because the vulnerability remediation
                               process was incomplete at the end of our review, we could not as-
                               sess whether it was used to establish and fund the most critical pri-
                               orities.
                                   We interviewed officials in the Department’s Office of the Un-
                               der Secretary for Management, Bureau of Diplomatic Security
                               (DS), IRM, INL, Bureau of Intelligence and Research, International
                               Information Programs, geographic bureaus, Foreign Service Insti-
                               tute, and Diplomatic Telecommunications Service regarding their
                               involvement with the preparation and execution of the
                               Department’s CIPP. We also interviewed officials at the National
                               Critical Infrastructure Assurance Office, Department of Defense,
                               Central Intelligence Agency, and Director of Central Intelligence
                               Center for Security Evaluation regarding relevant aspects of the
                               CIPP and the Department’s role as the Foreign Affairs Lead
                               Agency under PDD-63.



                                   6
                                      The Department conducted vulnerability assessments of only those assets
                               whose loss would limit the Department’s capability to perform minimum-essential
                               processes and that are an essential part of our nation’s “minimum-essential” infra-
                               structure.
OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                                     7


                                  UNCLASSIFIED
                  UNCLASSIFIED


                  During May and June 2000, we performed work at the U.S. Em-
              bassies in Tokyo and London, and the American Institute in Tai-
              wan, where we met with U.S. Government, host government, and
              private sector officials. We selected those locations because the
              governments and private entities in those countries were addressing
              cyber threats to their critical infrastructure, and were in a position
              to assess what role the U.S. Government might play in addressing
              international cyber security issues.
                  We followed generally accepted government auditing standards
              and conducted such tests and procedures, as we considered neces-
              sary for the assignment. Staff from our Information Technology
              Issue Area performed this evaluation from March 2000 through
              February 2001. Frank Deffer, Acting Assistant Inspector General;
              Robert C. Taylor, Audit Manager; John Shiffer and Anthony
              Carbone, Senior Auditors contributed to the report. Mr. Deffer, at
              defferf@state.gov and 703.284.2715, or Mr. Taylor at
              taylorr2@state.gov and 703.284.2685, will respond to comments or
              questions about the report.




8   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                  UNCLASSIFIED
                                  UNCLASSIFIED



Background
Back

                               In October 1997, the President’s Commission on Critical Infrastruc-
                               ture Protection reported7 that the information revolution and the
                               introduction of computers into virtually every dimension of our
                               society had changed our economy, national security, and everyday
                               lives. In particular, many of our most sophisticated global national
                               security systems rely on commercial power, communications, and
                               transportation, which are also computer-controlled.
                                    The Commission found that all computer-driven systems are
                               vulnerable to intrusion and destruction. A concerted attack on the
                               computers of any one of our essential economic sectors or govern-
                               mental agencies could have catastrophic effects. The Commission
                               also found that the threat was real. Where once our enemies mostly
                               relied on bombs and bullets, they can now use computers to inflict
                               enormous damage. The Commission concluded that to preserve
                               our security and economic well being, we must protect our critical
                               computer-controlled systems from attack, and assist friendly and
                               like-minded countries protect their critical cyber infrastructure.
                                   After reviewing the Commission’s report, President Clinton is-
                               sued Presidential Decision Directive 63 in May 1998 to establish a
                               national effort to ensure critical infrastructure security, also known
                               as minimum-essential infrastructure, for the United States and other
                               friendly countries.8 On April 5, 2001, the Director of the National
                               Critical Infrastructure Assurance Office testified before The House
                               Commerce Committee, Subcommittee on Oversight and Investiga-
                               tions, that President Bush has indicated critical infrastructure pro-
                               tection will be a priority of his administration.



                                   7
                                     Critical Foundations: Protecting America’s Infrastructures, The Report of
                               the President’s Commission on Critical Infrastructure Protection, Washington,
                               DC, October 13, 1997.
                                   8
                                       The PDD-63 White Paper defines critical infrastructure as the “ . . . physi-
                               cal and cyber-based systems essential to the minimum operations of the economy
                               and government.” The Critical Infrastructure Assurance Office defined agency
                               minimum-essential infrastructure as the organizations, personnel, systems, and
                               facilities required to accomplish an agency’s core mission as its mission relates to
                               national security, national economic security, or continuity of government services.

OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                                      9


                                  UNCLASSIFIED
                    UNCLASSIFIED


                    PDD-63 requires Federal agencies to assess the cyber vulner-
               abilities of the Nation’s critical infrastructures — information and
               communications, energy, banking and finance, transportation, water
               supply, emergency services, and public health — and the authorities
               responsible for the continuity of federal, state, and local govern-
               ments. The directive places special emphasis on protecting the
               government’s own critical assets from cyber attack and the need to
               remedy deficiencies in order to become a model of information
               security. The directive also calls for the Federal Government to pro-
               duce a detailed plan to protect and defend America against cyber
               disruptions. PDD-63 acknowledges that CIP encompasses a wide
               range of information infrastructure security, strategy, and policy
               issues that we share with other countries on a regional and global
               basis. The United States is to take all necessary measures to elimi-
               nate significant CIP vulnerabilities within its borders, especially
               those involving cyber attacks, by May 22, 2003.
                    PDD-63 requires the Department to protect those of its facili-
               ties, people, and systems essential to U.S. critical infrastructure, and
               to be the U.S. Government Foreign Affairs Lead Agency.9 Further,
               the Omnibus Diplomatic Security and Antiterrorism Act of 1986
               requires the Secretary of State to develop and implement security-
               related policies and programs for U.S. Government diplomatic op-
               erations. The Department’s security policies and programs are sup-
               posed to ensure the security of all U.S. Government personnel on
               official business overseas and all facilities overseas for which the
               Secretary of State is responsible.

               Foreign Affairs Lead Agency

               PDD-63 asserts that because the U.S. Government shares responsi-
               bility with the governments of other countries for global CIP, Fed-
               eral agencies shall encourage international cooperation in managing
               the global CIP problem. The Undersecretary for Management se-
               lected the Assistant Secretary of INL to be Foreign Affairs Func-




                   9
                      The lead agencies are supposed to encourage and support their private and
               public sector counterparts to develop awareness, vulnerability assessment, and infor-
               mation sharing initiatives. They include telecommunications, banking and finance,
               energy, transportation, and essential government services.

10   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                    UNCLASSIFIED
                                  UNCLASSIFIED


                               tional Coordinator. The Coordinator is responsible for fostering
                               international CIP cooperation, directing departmental and inter-
                               agency efforts across the range of international CIP issues, and co-
                               ordinating all U.S. Government foreign affairs activities.
                                   The NSC Critical Infrastructure Coordination Group tasked its
                               Subgroup on International Cooperation, chaired by the Assistant
                               Secretary of INL, to assess international CIP issues and respond
                               with global solutions. In August 2000, the Subgroup issued an in-
                               ternational CIP outreach strategy report prepared by the Foreign
                               Affairs Functional Coordinator.

                               Critical Infrastructure Protection Plan

                               The National Critical Infrastructure Assurance Office issued the
                               National Plan for Information Systems Protection in January 2000 as called
                               for by PDD-63. The Plan proposes 10 programs for achieving the
                               objectives of (a) preparing for and preventing intrusions, (b) detect-
                               ing and responding to intrusions, and (c) building strong cyber secu-
                               rity foundations.10
                                   The Department issued its CIPP and started its vulnerability
                               assessment process in February and April 1999, respectively, be-
                               cause it already had the benefit of an extensive body of information
                               assurance policies, procedures, and programs. Several OIG, DS,
                               and General Accounting Office reports indicating the nature and
                               scope of the Department’s cyber security vulnerabilities were also
                               available.
                                    The Under Secretary for Management delegated to the Chief
                               Information Officer (CIO), responsibility for protecting the
                               Department’s cyber systems, and delegated to the Assistant Secre-
                               tary for DS, as the Chief Infrastructure Assurance Officer, respon-
                               sibility for overseeing protection of the remaining critical infrastruc-
                               ture. The Under Secretary for Management also established the
                               Virtual Governance Board, Vulnerability Assessment Working
                               Group, and Security Infrastructure Working Group to coordinate
                               and implement the CIPP, the Integrated Systems Security Manage-
                               ment Plan, and the Comprehensive Risk Management Plan.


                                   10
                                        Preparing for, preventing, detecting and responding to intrusions addresses
                               critical infrastructure assets, shared interdependencies, and vulnerabilities by mini-
                               mizing the possibility of significant attacks on national critical infrastructure, and
                               building an infrastructure that remains effective when attacked.

OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                                       11


                                  UNCLASSIFIED
                    UNCLASSIFIED


                  The CIPP describes the Department’s plans to reduce risks to
               minimum-essential cyber infrastructure and other mission critical
               cyber systems. At the time of our review, the Department had:
                   • defined minimum-essential infrastructure, identified domestic
                     minimum-essential cyber and physical infrastructure security
                     vulnerabilities and initiated risk assessments to determine
                     how best to address the vulnerabilities;
                   • established an organizational structure for developing CIP
                     priorities and funding;
                   • implemented an intrusion detection system to detect and
                     respond to cyber attacks;
                   • prepared a critical infrastructure reconstitution11 plan in case
                     of successful infrastructure attacks; and
                   • established a cyber security awareness program and shared
                     cyber threat intelligence with other agencies.




                   11
                       A system to reconstitute minimum required capabilities for varying levels of
               successful infrastructure attacks in a rapid manner.




12   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                    UNCLASSIFIED
                                  UNCLASSIFIED



Findings

                               The Department can do more to enhance the results of its efforts
                               to carry out its Foreign Affairs Lead Agency role and to address the
                               minimum-essential cyber infrastructure requirements of PDD-63.
                                    The international outreach strategy developed by the Subgroup
                               on International Cooperation under the Department’s leadership
                               emphasizes international law enforcement consultations with a few
                               close allies. In contrast, PDD-63 encourages international CIP co-
                               operation with like-minded and friendly nations, international orga-
                               nizations, and multinational corporations and a focus on preventa-
                               tive measures as well as threat and crisis management. The
                               Department’s International Information Programs Coordinator
                               should assist the Subgroup on International Cooperation expand
                               and enhance the strategy to include encouraging a wide range of
                               like-minded and friendly governments to implement effective CIP
                               measures.
                                   The Department’s CIPP has 11 objectives addressing PDD-63
                               requirements for minimum-essential infrastructure, vulnerability
                               assessments, risk analysis and remediation, warning systems, re-
                               sponse capabilities, reconstitution plans, and education and aware-
                               ness programs. Although the plan provides a suitable framework
                               for protecting minimum-essential cyber infrastructure, it falls short
                               of what PDD-63 requires.



Foreign Affairs Lead           The President’s Commission on Critical Infrastructure Protection
Agency                         wrote in its 1997 report, Critical Foundations: Protecting America’s Infra-
                               structure that the United States is in the vanguard of countries to
                               deal with international CIP. The Commission concluded that the
                               status of the United States gives it the opportunity to shape interna-
                               tional cooperation and positively influence governments and infra-
                               structure owners and operators who share our global community.
                               Achieving the Commission’s goal will require substantial interna-
                               tional collaboration beyond the limitations of the existing interna-
                               tional outreach strategy.
                                    The situation described by the President’s Commission still ex-
                               ists according to the Director of the National Infrastructure Protec-
                               tion Center. On April 5, 2001, the Director testified before the

OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                           13


                                  UNCLASSIFIED
                   UNCLASSIFIED


               House Energy and Commerce Committee, Oversight and Investi-
               gations Subcommittee, that information warfare against the critical
               infrastructures of the United States and other nations is perhaps the
               greatest cyber threat to our national security. He further testified
               that terrorists groups are using cyber technology for planning, fund
               raising, propaganda, and secure communications, and that foreign
               intelligence services have adapted cyber tools to their information
               gathering tradecraft.
                   In combating this situation, PDD-63 requires the U.S. Govern-
               ment to encourage international cooperation to help manage the
               global CIP problem and to focus its efforts on preventative mea-
               sures and threat and crisis management involving like-minded and
               friendly nations, international organizations, and multinational cor-
               porations. The NSC Critical Infrastructure Coordination Group
               designated the Subgroup on International Cooperation, chaired by
               the Foreign Affairs Functional Coordinator, to coordinate these
               efforts.
                   Under the direction of the Subgroup on International Coopera-
               tion, and following interagency discussions and consultations, the
               Foreign Affairs Functional Coordinator published a classified plan,
               CIP: A Four Track Approach to International Outreach,12 in August 2000.
               The plan provides guidance and procedures for coordinating U.S.
               Government international CIP activities. Priorities for cooperation
               with other countries are governed by the extent to which the U.S.
               depends on the infrastructure of the other countries or groups of
               countries. Although the document discusses promoting CIP aware-
               ness and security standards, it emphasizes law enforcement as key to
               dealing with global minimum-essential cyber infrastructure security.
               Further, the document contains no discussion of preventative pro-
               tective measures the U.S. Government should take to enhance inter-
               national CIP.
                   The document places minimal emphasis on developing global
               solutions by expanding cooperation on CIP preventative measures
               with like-minded and friendly nations, international organizations,
               and multinational corporations, as envisioned by PDD-63. As sug-
               gested by the President’s Commission on Critical Infrastructure
               Protection, the most effective and efficient method for achieving




                   12
                        See Appendix D for an unclassified summary of the strategy.

14   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                   UNCLASSIFIED
                                  UNCLASSIFIED


                               increased protection from cyber threats involves a strategy of coop-
                               eration and information sharing among infrastructure owners and
                               operators and relevant government entities. In addition, the Com-
                               mission pointed out the need for comprehensive awareness and
                               education programs at all levels of society.
                                   INL officials told us resource constraints and national security
                               concerns cause this lack of emphasis on a wider global effort.
                               However, according to the Department’s International Information
                               Programs Coordinator, it already has resources available to assist
                               the Subgroup on International Cooperation of the NSC Critical
                               Infrastructure Coordination Group in developing a broad outreach
                               program as envisioned by PDD-63. Presumably, the Department
                               would implement such efforts within appropriate national security
                               constraints.

                               Strengthening International Critical Infrastructure
                               Protection

                               Compared to the approach described in PDD-63, the Subgroup on
                               International Cooperation of the NSC Critical Infrastructure Coor-
                               dination Group has adopted a constrained strategy for strengthen-
                               ing international CIP.
                                    PDD-63 directs the Federal Government to take a global and
                               preventative approach to expanding CIP cooperation among like-
                               minded and friendly nations, international organizations, and multi-
                               national corporations without any stated limit on the extent of our
                               critical infrastructure interdependencies. PDD-63 is not in any way
                               focused on regulating the use of global information technology and
                               systems. This approach recognizes that, in cyber-space, the United
                               States is interdependent with a wide range of countries, and that
                               globally shared responsibility and partnership among critical infra-
                               structure owners and operators and governments, not additional
                               regulations, are key to the success of international CIP.
                                   The Subgroup on International Cooperation chose, however, to
                               constrain its strategy to focusing on the extent to which the United
                               States is dependent on the infrastructure, economy, or government
                               of a hand full of other countries. The highest priorities of the
                               strategy are on bilateral, interagency, and sector specific CIP work




OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                     15


                                  UNCLASSIFIED
                    UNCLASSIFIED


               with strategic partners and a few international organizations13 with
               the goal of jointly regulating the use of global information technol-
               ogy and systems. The first priority countries are those that the
               United States has the greatest degree of infrastructure interdepen-
               dency. The second priority countries are those with which we have
               limited infrastructure interdependencies but significant economic
               and governmental interdependencies and opportunities for coop-
               erative efforts. The lowest priority is on bilateral and multilateral
               CIP awareness-raising activities involving a broad range of friendly
               and like-minded countries and regional groups as described in
               PDD-63.
                   The Subgroup on International Cooperation could initiate a
               more substantial international CIP collaboration effort by having
               the lead agencies for all sectors provide the Department’s geo-
               graphic bureaus and posts with public sector-specific CIP material,
               and lists of contacts that their foreign counterparts can access for
               CIP awareness, technical assistance and training.14
                   Further, the Department’s International Information Programs
               Coordinator is available to facilitate international CIP outreach and
               cooperation.15 Under the collaborative guidance of the Coordinator
               and the Subgroup on International Cooperation, posts could spon-
               sor host country, sector specific, and regional working groups that
               include representatives of host country government and private
               entities and international organizations,16 in order to share CIP in-
               formation. An International Information Programs Coordinator




                   13
                     For example, the United Nations, North Atlantic Treaty Organization, G
               8, Council of Europe, Asian Pacific Economic Council, and Organization of
               American States.
                   14
                      An example involved the Department and several Federal agencies in the
               Year 2000 International Interagency Working Group. They reviewed Year 2000
               preparations overseas and assisted dozens of countries.
                   15
                       Such an effort would be similar to the global public diplomacy campaign, led
               by the former U.S. Information Agency that addressed host country and cross-
               border Year 2000 issues.
                   16
                       In 1999, posts formed working groups with the embassies of other countries
               to discuss Year 2000 issues among themselves and with host country representa-
               tives. This was an effective method for exchanging information and coordinating
               contingency planning.


16   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                    UNCLASSIFIED
                                  UNCLASSIFIED


                               representative said the office could facilitate a variety of CIP out-
                               reach efforts, if requested by the Foreign Affairs Functional Coor-
                               dinator on behalf of the Subgroup on International Cooperation.17
                                   Although global cooperation on such technically complex issues
                               is often difficult, officials in the countries we visited said the United
                               States could provide global CIP leadership because of its cyber se-
                               curity experience and expertise and suggested the United States
                               could play an active role in increasing global CIP awareness, techni-
                               cal assistance, and training.

                                 Recommendation 1: We recommend the Assistant Secretary
                                 for International Narcotics and Law Enforcement Affairs, acting
                                 as the Foreign Affairs Functional Coordinator, seek to have the
                                 National Security Council Policy Coordination Committee on
                                 Counter-Terrorism and National Preparedness, which incorpo-
                                 rates the Subgroup on International Cooperation of the NSC
                                 Critical Infrastructure Coordination Group, expand its approach
                                 to international critical infrastructure protection. This approach
                                 should include:

                                   • coordinating the efforts of U.S. Government sector leaders to
                                     provide critical infrastructure protection information and
                                     assistance to a wide range of friendly countries requesting
                                     such assistance;
                                   • focusing the efforts of U.S. Government sector leaders,
                                     Department missions, trade and business groups, and
                                     international organizations on actively promoting critical
                                     infrastructure protection preventative measures;
                                   • encouraging multilateral cooperation, contingency planning,
                                     and open exchange of public information with the widest
                                     possible range of friendly countries and international
                                     organizations;
                                   • supporting Department of State posts in engaging foreign
                                     governments in joint efforts to prevent or otherwise solve
                                     critical infrastructure protection problems; and


                                   17
                                      During Y2K preparations, the former U.S. Information Agency developed
                               a readiness database for 16 critical infrastructure sectors in foreign countries. Posts
                               supplied data using vulnerability and readiness criteria developed by the Year 2000
                               International Interagency Working Group chaired by the Department. A similar
                               database of CIP vulnerability and readiness assessments would be useful for con-
                               tingency planning by the Department and other agencies with an overseas presence.

OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                                       17


                                  UNCLASSIFIED
                   UNCLASSIFIED


                  • using the expertise and resources of the International
                    Information Programs Coordinator in developing and
                    implementing the Working Group’s outreach efforts.
                   Comments by the Bureau of International Narcotics and
               Law Enforcement Affairs: In its written comments, the Bureau
               stated the draft report contains many helpful observations and sug-
               gestions. However, the Bureau also criticized this section of our
               report, stating that it mischaracterized the U.S. Government’s inter-
               national outreach strategy. The Bureau stated that PDD-63 di-
               rected the Subgroup to develop an international plan “as a subordi-
               nate and related task” to completing the first ever U.S. National In-
               frastructure Assurance Plan.
                    In our view, because the President issued the National Plan for
               Information Systems Protection, the subject of this report, 8 months
               before the international outreach strategy was developed, the Bu-
               reau had few constraints in how comprehensively it developed the
               international strategy
                   Our recommendation, if implemented, would enhance the in-
               ternational strategy by allowing the Department as a whole, and
               other public, private and nongovernmental organizations, to address
               PDD-63’s explicit goals for the Federal Government to:
                  • protect the security of our globally linked domestic and
                    international critical cyber infrastructure,
                  • encourage international cooperation to help manage “this
                    increasingly global problem,”
                  • encourage market incentives and other actions to help
                    harness the latest technologies to accomplishing “global
                    solutions” to international problems,
                  • focus on preventative measures, and
                  • establish an international cooperation “plan to expand
                    cooperation on critical infrastructure protection with like-
                    minded and friendly nations, international organizations and
                    multinational corporations.”
                    Comments by the International Information Programs
               Coordinator: The Acting Coordinator stated his organization is
               willing to assist in the type of international public information and
               assistance called for in this report. He noted, however, that such an
               effort would require the ongoing level of resources support the De-
               partment committed to addressing Y2K. We believe the Assistant
               Secretary for International Narcotics and Law Enforcement Affairs


18   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                   UNCLASSIFIED
                                  UNCLASSIFIED


                               should work with the Acting Coordinator to identify the resources
                               needed for a sustained effort to broaden the international outreach
                               strategy, and present the results of that analysis to the Subgroup on
                               International Cooperation to include in the international outreach
                               strategy.
                                   Comments by the Bureau of Information Resource
                               Management: The Chief Information Officer observed that infor-
                               mation management officers and others at our posts are trained and
                               experienced in critical information technology protection, and have
                               experience in working with foreign organizations and governments
                               in addressing information technology security issues. We agree with
                               the Chief Information Officer that enlisting their assistance, just as
                               the Department did most recently during our government’s interna-
                               tional Year 2000 preparations, could further the international coop-
                               eration goals of PDD-63.

                               Law Enforcement Assistance

                               Growth in international cyber crime demonstrates the need for
                               greater international law enforcement cooperation. Effectively re-
                               sponding to this threat requires that U.S. and foreign law enforce-
                               ment authorities be able to overcome cultural, linguistic, legal and
                               digital barriers that hamper the appropriate and timely exchange of
                               criminal investigative information.
                                   These issues were brought to the forefront at the July 26, 2000
                               hearing of the Subcommittee on Government Management, Infor-
                               mation and Technology of the House Committee on Government
                               Reform on Computer Security: A War without Borders. The Subcommit-
                               tee Chairman noted that not all countries have the capability to de-
                               tect and address international computer attacks. He further noted
                               that even with countries that have law enforcement agencies and
                               organizations that can investigate and share cyber-attack informa-
                               tion, there is a question among the variety of players regarding who
                               is coordinating an efficient, effective response to this international
                               problem. The Subcommittee examined the challenges of coordi-
                               nating these cyber-attack investigations.
                                    In a similar vein, we found that although the law enforcement
                               officials we met overseas were pleased with the assistance they re-
                               ceived from the U.S. Government, they told us they need more help
                               to enhance awareness and training at all levels of law enforcement,
                               and improve the efficiency and scope of investigative assistance


OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                       19


                                  UNCLASSIFIED
                   UNCLASSIFIED


               that can be obtained from the large variety of law enforcement ju-
               risdictions and organizations in the United States in order to obtain
               timely access to cyber evidence.

               Training and Technical Assistance

               The countries we visited have strengthened their cyber criminal
               laws, investigative and prosecution organizations, and international
               ties for conducting investigations. They have participated in multi-
               lateral and bilateral efforts to address the problems, and have sent
               staff to the United States for bilateral discussions and training.
               Some countries and international organizations are establishing spe-
               cialized units to address cyber crime in their countries. The Euro-
               pean Union plans to issue guidelines to member countries for fight-
               ing cyber crimes including recommended cyber crime laws, and the
               G 8 is drafting recommended cyber crime laws and a cyber crime
               treaty for member countries.
                   Our government could enhance these positive efforts to fight
               cyber crime by providing additional training and technical assis-
               tance, especially to a wide range of friendly developed and develop-
               ing countries. It does little good to strengthen laws and treaties if
               law enforcement officials and staff do not know enough about
               cyber technology to judiciously handle a wide range of cyber crime
               investigations and cases. Providing friendly countries with neces-
               sary expertise and materials to train officials and staff in the judi-
               ciary, prosecution, and police would go a long way to address these
               needs. For example, the Federal Bureau of Investigation Academy
               can provide investigative computer instruction, training, and cur-
               riculum for foreign law enforcement personnel.

                Recommendation 2: We recommend the Assistant Secretary
                for International Narcotics and Law Enforcement Affairs, acting
                as the Foreign Affairs Functional Coordinator, work with U.S.
                Government and nongovernmental organizations to provide
                friendly foreign governments with opportunities for obtaining
                cyber law enforcement training and technical assistance.

                  Bureaus’ Comments: The Bureaus did not comment on
               Recommendation 2.




20   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                   UNCLASSIFIED
                                  UNCLASSIFIED


                               Investigative Assistance

                               Law enforcement officials in the countries we visited told us the
                               two biggest problems in international investigations involve obtain-
                               ing information, because legal criminal law and procedures vary
                               among countries, and obtaining support from host country law en-
                               forcement agencies. For example, one of the major problems faced
                               in dealing with Internet crime is obtaining timely access to useful
                               information from foreign Internet service providers. The normal
                               procedure for obtaining such information involves an international
                               letters rogatory followed by a court order or subpoena, which can
                               be a time-consuming process. However, with some types of com-
                               puter crime, and specifically cyber intrusions, an immediate re-
                               sponse is necessary by law enforcement, since data needed for evi-
                               dence are generally only stored for a brief time period.
                                    A possible solution to the investigative assistance problem was
                               suggested by the Chief, Computer Crime Unit, Swedish National
                               Crime Investigation Department, in his July 2000 testimony before
                               the hearing on Computer Security: A War without Borders of the Sub-
                               committee on Government Management, Information, and Tech-
                               nology. The Chief testified that the major problem his unit faces in
                               coping with Internet crime is obtaining access to investigative infor-
                               mation from foreign internet service providers and responsible web
                               managers. Normally, providers request court orders, subpoenas or
                               other formal domestic dispositions before they provide the re-
                               quested information. Such requests involve time-consuming and
                               difficult international letters rogatory. One way to address these
                               problems, he suggested would be international agreements to re-
                               lease subscriber information and address logs to foreign law en-
                               forcement authorities without formal letter rogatory requests in a
                               manner that ensured proper handling of the information.
                                   The officials we met suggested establishing improved communi-
                               cation channels for more efficient and effective processing of inves-
                               tigative assistance requests and improved procedures for gaining
                               access to evidence in a more timely manner. An example is setting
                               up special communication channels that would be open 24 hours a
                               day to handle urgent and critical cases. They also recommended
                               governments give their central investigative agencies authority to act
                               immediately to preserve evidence crucial to international cyber in-
                               vestigations.




OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                       21


                                  UNCLASSIFIED
                                UNCLASSIFIED



                             Recommendation 3: We recommend the Assistant Secretary
                             for International Narcotics and Law Enforcement Affairs, acting
                             as the Foreign Affairs Functional Coordinator, work with the
                             Department of Justice to identify and disseminate through posts
                             more efficient and effective communications channels for pro-
                             cessing foreign governments’ investigative assistance requests,
                             and improved procedures for gaining more timely access to evi-
                             dence, that foreign law enforcement entities can use to enhance
                             their investigations of cyber crimes involving United States enti-
                             ties and individuals.

                               Bureaus’ Comments: The Bureaus did not comment on
                            Recommendation 3.



Critical                    The Department established a CIPP with 11 objectives addressing
Infrastructure              the PDD-63 requirements for minimum-essential infrastructure,
Protection Plan             vulnerability assessments, risk analysis and remediation, warning
                            systems, response capabilities, reconstitution plans, and education
                            and awareness programs. Although the Department implemented
                            several important parts of the plan for its domestic operations, and
                            established a suitable framework for addressing its minimum- essen-
                            tial infrastructure, it excluded important elements from the CIPP
                            and vulnerability assessment processes. Specifically,
                               • The Department has not assessed the vulnerabilities of its
                                 minimum-essential cyber infrastructure in its foreign
                                 operations.
                               • The Department’s CIPP, policies, and procedures do not
                                 adequately address the OMB Circular No. A-130, Appendix
                                 III requirement to review the security controls of all
                                 automated information systems, including those that are part
                                 of its minimum-essential infrastructure, at least once every 3
                                 years.
                               • The Department has not assessed vulnerabilities in its
                                 interagency connections.
                               • The Department’s CIPP, policies, and procedures do not
                                 specify how the Department will ensure that all employees
                                 and contractors are trained on required CIP concepts and
                                 skills applicable to their respective involvement with the
                                 Department’s minimum-essential cyber infrastructure.



22                OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                                UNCLASSIFIED
                                  UNCLASSIFIED


                                   • The Department’s CIPP and associated policies do not
                                     require bureaus and posts to notify the Corporate
                                     Information System Security Officer of the designation of
                                     Information System Security Officers and their alternates.

                               Department’s Foreign Operations

                               The Department did not include foreign operations in its PDD-63
                               planning, and the CIPP and vulnerability assessments did not ad-
                               dress the role of foreign operations in protecting minimum-essen-
                               tial infrastructure. Further, the Department did not consult the Di-
                               rector of Central Intelligence Center for Security Evaluation18 dur-
                               ing preparation of the CIPP and the vulnerability assessment re-
                               garding potential minimum-essential cyber security issues affecting
                               the intelligence community abroad.
                                   The Department provides minimum-essential cyber infrastruc-
                               ture support for its own operations and those of other U.S. Gov-
                               ernment agencies operating overseas. These overseas operations
                               are essential to U.S. Government foreign policy and relations, na-
                               tional defense, and American interests abroad. The OIG has issued
                               several reports on vulnerabilities in the Department’s foreign cyber
                               operations, including inadequate security of classified and unclassi-
                               fied systems. Whether the Department or the other agencies con-
                               sider the overseas cyber infrastructure minimum-essential has not
                               yet been determined.

                                 Recommendation 4: We recommend the Chief Information
                                 Officer and the Assistant Secretary for Diplomatic Security ad-
                                 dress the Department’s foreign operations in subsequent critical
                                 infrastructure protection plans and vulnerability assessments to
                                 determine what, if any, overseas minimum-essential cyber infra-
                                 structure should be subject to vulnerability assessments. In do-
                                 ing so, Department officials should include representatives of
                                 other agencies having an overseas presence in developing the
                                 overseas portion of the plans, and conducting and assessing the
                                 overseas portion of the vulnerability assessments as appropriate.




                                   18
                                       This organization is responsible for protecting intelligence sources and meth-
                               ods information in U.S. Diplomatic facilities abroad based on its analysis of for-
                               eign intelligence vulnerabilities and countermeasures.

OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                                       23


                                  UNCLASSIFIED
                   UNCLASSIFIED


                   Comments of the Bureau of Information Resource Man-
               agement: The Bureau of Information Resource Management con-
               curred in Recommendation 4.
                   Comments by the Bureau of Diplomatic Security: The Bu-
               reau of Diplomatic Security agreed that this critical area requires
               PDD-63 assessment, and said the Department plans to address this
               recommendation during the next phase of its continuing PDD-63
               vulnerability assessment process.

               Periodically Assessing Security Controls

                    PDD-63 requires frequent assessments of the reliability, vulner-
               ability, and threat environment of minimum-essential cyber infra-
               structure so that organizations can address changing technology and
               threats with appropriate protective measures and responses. OMB
               Circular No. A-130, Appendix III requires evaluating the security
               controls of all automated information systems (presumably includ-
               ing minimum-essential cyber infrastructure) at least once every 3
               years, and whenever there are significant changes to the systems.
                   Although DS planned to increase its evaluation activities, there
               is no supporting schedule or policy regarding minimum-essential
               cyber infrastructure. Further, the CIPP and Department policies
               make no reference to testing minimum-essential cyber infrastruc-
               ture for security controls vulnerabilities at least once every 3 years
               as required for all cyber systems by OMB Circular No. A-130, Ap-
               pendix III. DS has issued security software toolkits to identify inap-
               propriate security configurations in unclassified systems, but none
               for minimum-essential cyber infrastructure.
                    We are recommending that DS evaluate cyber minimum-essen-
               tial infrastructure security controls at least once every 3 years be-
               cause that is the only Federal Government criteria at this time.
               However, we believe DS should consider more frequent testing of
               those controls given the very dynamic threat environment faced by
               the Department’s cyber minimum-essential infrastructure, and the
               importance of that infrastructure to mission accomplishment.

                Recommendation 5: We recommend the Bureau of Diplo-
                matic Security schedule and conduct security controls evalua-
                tions of all minimum-essential cyber infrastructure at least once
                every 3 years, and whenever there are significant changes to
                minimum-essential cyber infrastructure, both as required by
                OMB Circular No. A-130, Appendix III.

24   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                   UNCLASSIFIED
                                  UNCLASSIFIED



                                 Recommendation 6: We recommend the Bureau of Diplomatic
                                 Security modify 12 Foreign Affairs Manual 600, and the Bureau
                                 of Information Resource Management amend the Critical Infra-
                                 structure Protection Plan, to require periodic security control
                                 evaluations of all minimum-essential cyber infrastructure at least
                                 once every 3 years.

                                    Comments by the Bureau of Diplomatic Security: The Bu-
                               reau commented that it had periodically conducted penetration tests
                               on the Department’s networks, but that it will not conduct addi-
                               tional evaluations until December 2003. Although the Bureau is
                               augmenting its capabilities, it recommended limiting periodic secu-
                               rity controls evaluations to only those systems identified in the Vul-
                               nerability Assessment Reports.
                                   Although we are pleased the Bureau is committing more re-
                               sources to this effort, we are concerned that these resources will not
                               be fully deployed until December 2003. It is not making an explicit
                               commitment to meeting OMB Circular No. A-130, Appendix III
                               requirements to schedule and conduct security controls evaluations
                               once every 3 years, at least as they pertain to all minimum-essential
                               cyber infrastructures. Regarding the Bureau’s desire to limit the
                               scope of the evaluations, we remind the Bureau that OMB Circular
                               No. A-130, Appendix III requires such evaluations for all auto-
                               mated information systems in the Department.
                                    Comments of the Bureau of Information Resource
                               Management: The Chief Information Officer concurred with the
                               recommendation to conduct security control evaluations periodi-
                               cally and whenever there are significant changes to minimum-essen-
                               tial cyber infrastructure. The CIO suggested we change the recom-
                               mendation to conduct the evaluations more often, perhaps once
                               every 18 months as in evaluations of secure communications
                               (COMSEC) systems, because of the many changes in configura-
                               tions and threats. We left it at 3 years as required by OMB Circular
                               No. A-130, Appendix III.

                               Critical Interagency Systems Vulnerabilities

                               The national minimum-essential information systems protection
                               plan requires agencies to identify shared interdependencies and vul-
                               nerabilities. The plan focuses on minimum-essential systems that
                               cross between agencies and are interdependent for their security.


OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                       25


                                  UNCLASSIFIED
                   UNCLASSIFIED


               The Department’s vulnerability assessment did not address the po-
               tential impact on national minimum-essential infrastructure of its
               cyber connections with other agencies.

               Assessments of Interagency Minimum-Essential
               Infrastructure Vulnerabilities

               The National Plan for Information Systems Protection prepared by
               the National Coordinator for Security, Infrastructure Protection,
               and Counter-Terrorism calls for agencies to identify their critical
               infrastructure system interdependencies and their associated shared
               threats and vulnerabilities. The Department did not assess the vul-
               nerabilities in its minimum-essential cyber infrastructure relation-
               ships with other agencies. One example is that the Foreign Service
               National Pay System’s direct connections to the Department of
               Treasury minimum-essential information systems may pose some
               risks to the Department of Treasury’s minimum-essential cyber in-
               frastructure.

                Recommendation 7: We recommend the Chief Information
                Officer and Bureau of Diplomatic Security ensure that subse-
                quent critical infrastructure protection plans and vulnerability
                assessments address minimum-essential interagency infrastruc-
                ture vulnerabilities.


                   Comments of the Bureau of Information Resource Man-
               agement: The Bureau of Information Resource Management con-
               curred with Recommendation 7.
                    Comments by the Bureau of Diplomatic Security: The Bu-
               reau commented that the Department has developed plans to assess
               interdependencies with other agencies during subsequent phases of
               its vulnerability assessment activities. We anticipate those plans will
               be described in the next version of the Department’s Critical Infra-
               structure Protection Plan.

               Interagency CIP Training and Exercises

               PDD-63 generally and the Department’s CIPP specifically requires
               the Foreign Service Institute to establish training and exercises in-
               volving interagency critical infrastructure protection practices and
               procedures using guidance provided by DS and IRM. However, DS


26   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                   UNCLASSIFIED
                                  UNCLASSIFIED


                               and IRM have not provided the Foreign Service Institute with the
                               guidance it needs to develop the interagency CIP training and exer-
                               cises required by PDD-63 and the Department’s CIPP.

                                 Recommendation 8: We recommend the Assistant Secretary
                                 for Diplomatic Security, Chief Information Officer, and the Di-
                                 rector of the Foreign Service Institute jointly develop and imple-
                                 ment interagency critical infrastructure protection practices and
                                 procedures training and exercises that meets the requirements of
                                 Presidential Decision Directive 63.

                                    Comments by the Bureau of Diplomatic Security: The
                               Bureau commented that the Vulnerability Assessment Working
                               Group, in concert with the Bureau of Information Resource Man-
                               agement and the Foreign Service Institute, will identify opportuni-
                               ties to develop materials and courses to meet this requirement.
                                   Comments of the Bureau of Information Resource Man-
                               agement: The Bureau of Information Resource Management con-
                               curred with Recommendation 8.

                               Designations of Information System Security
                               Officers and Alternates

                               The Omnibus Diplomatic Security and Antiterrorism Act of 1986
                               requires the Secretary of State to develop and implement security-
                               related procedures and programs for U.S. Government foreign op-
                               erations. Primary responsibility for the security of posts rests with
                               the Chiefs of Mission under 1 FAM 013.2 and 2 FAM 113.1. Assis-
                               tant Secretaries have the same responsibilities for domestic opera-
                               tions under provisions of 12 FAM 615.18. However, there is no
                               requirement for Chiefs of Mission and Assistant Secretaries to no-
                               tify DS or the Corporate Information System Security Officer when
                               employees are designated Information System Security Officers or
                               alternates. Consequently, DS cannot ensure the designees have suf-
                               ficient training and experience to perform their Information System
                               Security Officer responsibilities, which could result in unidentified
                               minimum-essential cyber infrastructure vulnerabilities.




OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                      27


                                  UNCLASSIFIED
                   UNCLASSIFIED



                Recommendation 9: We recommend that the Bureau of Dip-
                lomatic Security amend 12 Foreign Affairs Manual 600 to require
                that it be given the names of Information System Security Offic-
                ers, and their alternates, in a timely manner, and that the Bureau
                of Diplomatic Security ensure all designees have sufficient expe-
                rience and training.

                   Comments by the Bureau of Diplomatic Security: The
               Bureau commented that 12 Foreign Affairs Manual 600 will be
               amended to require that written notification of appointments or
               changes be sent to the Bureau, and that the Bureau will provide the
               information to other pertinent offices.
                   Comments by the Bureau of Information Resource
               Management: The Bureau of Information Resource Management
               suggested we revise Recommendation 9 to include the Corporate
               Information Systems Security Officer. The Bureau of Diplomatic
               Security has committed to providing the information to all other
               pertinent offices. We believe that having a single point of contact
               for this reporting will cause less confusion among Information Sys-
               tems Security Officers here and abroad.

               Minimum-Essential Cyber Infrastructure Security
               Awareness and Training

               Information technology security awareness and training can reduce
               exposure to known risks, but only if all employees are appropriately
               educated about the security of minimum-essential cyber infrastruc-
               ture. The Department does not have sufficient policies, procedures,
               and programs to assure that employees are trained to properly se-
               cure the Department’s information systems in general and its mini-
               mum-essential cyber infrastructure in particular.
                   The Computer Security Act of 1987 requires mandatory peri-
               odic security awareness and training in accepted security practices
               for everyone involved in managing, using, or operating sensitive
               cyber systems. The training is required to enhance awareness of
               cyber vulnerabilities and threats, and encourage improved security
               practices. The procedures, scope, and manner of the security
               awareness and training must comply with National Institute of
               Standards and Technology (NIST) and U.S. Office of Personnel
               Management (OPM) guidance. (See Appendix C for the require-
               ments.)


28   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                   UNCLASSIFIED
                                  UNCLASSIFIED


                                   OPM requires information technology security training for new
                               employees within 60 days of hiring.19 OPM also requires that all
                               employees receive the training when they enter new positions deal-
                               ing with sensitive information, or when their information security
                               environment or procedures change significantly. OPM also requires
                               periodic refresher training.
                                    The Under Secretary for Management’s directive, Security of
                               Automated Information Systems, mandates establishing security
                               education and awareness programs to inform managers and em-
                               ployees of their responsibilities. DS is responsible for administering
                               the Department’s information systems security training and aware-
                               ness program, including minimum-essential cyber infrastructure.
                               The Under Secretary’s directive has criteria for measuring compli-
                               ance with the security standards and states that assistant secretaries
                               will be held accountable for adhering to published security stan-
                               dards.
                                    In October 2000, the Secretary of State sent a cable to all posts
                               requiring that proper handling and safeguarding of classified mate-
                               rial and information be included in the work requirements state-
                               ments and employee evaluation reports of all Foreign Service em-
                               ployees and supervisors. The Director General of the Foreign Ser-
                               vice and Director of Human Resources (DGHR) are developing
                               similar requirements for Civil Service employees and supervisors,
                               which will become effective starting with the 2001 performance
                               plans.
                                   Currently, only computer operations staff and applications
                               managers are accountable for information system security under 12
                               FAM 600. However, 12 FAM 600 does not reference the new De-
                               partment policies requiring that supervisors use performance re-
                               quirements and appraisal processes to hold employees accountable
                               for meeting the Department’s information security standards, in-
                               cluding those that relate to minimum-essential cyber infrastructure.
                                   Although the 12 FAM 600 appendix identifies the Computer
                               Security Act of 1987, and the NIST, OPM, and National Security
                               Telecommunications and Information Systems Security Committee




                                   19
                                     Source: 5 CFR Part 930, Subpart C, Employees Responsible for the Man-
                               agement or Use of Federal Computer Systems.

OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                           29


                                  UNCLASSIFIED
                   UNCLASSIFIED


               (NSTISSC) awareness and training requirements, it does not de-
               scribe how the Department will implement those requirements.
               Specifically:
                   • 12 FAM 600 does not reference the OPM requirement that
                     all personnel with access to the Department’s information
                     systems are to have site-specific information technology
                     systems security training related to their responsibilities for
                     the systems within 60 days of their being granted access to
                     the systems;
                   • 12 FAM 600 does not require periodic and threat-specific
                     continuing or refresher cyber security training as required by
                     the Computer Security Act of 1987;
                   • 12 FAM 600 does not require certification that all personnel
                     having access to the Department’s systems have received
                     applicable initial and continuing systems security awareness
                     and training, even for minimum-essential cyber
                     infrastructure, as required by OMB Circular No. A-130,
                     Appendix III; and
                   • 12 FAM 600 excludes contractors and the personnel of other
                     agencies who have access to the Department’s information
                     systems from the mandatory refresher briefings conducted
                     annually as required by OMB Circular No. A-130, Appendix
                     III.
                    Enhanced procedures would require bureaus and offices to cer-
               tify to the CIO that all constituent units fully comply with appli-
               cable requirements and have documentation supporting the certifi-
               cations. The units could use existing documentation to support the
               certifications that they meet all applicable awareness and training
               requirements. Such documentation includes the Password Receipt and
               Security Acknowledgement Form requiring users to certify they will com-
               ply with all applicable security standards that could also require sys-
               tems managers to certify users have actually completed applicable
               security standards training.
                    Addressing the issues described above will enhance the
               Department’s ability to fully comply with the cyber security aware-
               ness and training requirements of the Computer Security Act of
               1987, and relevant provisions of NIST, OPM, and NSTISSC poli-
               cies. This requires developing and implementing better-organized
               approaches to ensuring all employees receive the awareness and
               training required by Federal laws, policies, regulations, programs,
               and procedures.


30   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                   UNCLASSIFIED
                                  UNCLASSIFIED



                                 Recommendation 10: We recommend the Director General of
                                 the Foreign Service and Director of Human Resources submit
                                 language to the Bureau of Diplomatic Security amending 12 For-
                                 eign Affairs Manual 600 to require that all job and work require-
                                 ments statements include individual responsibilities for mini-
                                 mum-essential cyber infrastructure security.


                                 Recommendation 11: We recommend that the Director Gen-
                                 eral of the Foreign Service and Director of Human Resources
                                 submit language to the Bureau of Diplomatic Security amending
                                 12 Foreign Affairs Manual 600 to require that all supervisors as-
                                 sess the extent to which all employees accomplish their indi-
                                 vidual roles and responsibilities for minimum-essential cyber in-
                                 frastructure security.

                                     Comments by the Director General of the Foreign Service
                               and Director of Human Resources on Recommendations 10
                               and 11: The Director General of the Foreign Service and Director
                               of Human Resources stated that the Security Awareness and Ac-
                               countability message contained in his ALDAC (State 203676, Octo-
                               ber 21, 2000) addresses the concerns found in Recommendations
                               10 and 11. Although the ALDAC does address the handling of
                               classified documents and information by Foreign Service employ-
                               ees, it does not specifically address the responsibilities of all Depart-
                               ment employees for minimum-essential cyber infrastructure secu-
                               rity.
                                   The Director General also commented that the Bureau of Dip-
                               lomatic Security is responsible for the 12 Foreign Affairs Manual.
                               Therefore, we changed the wording of Recommendations 10 and
                               11 to recommend the Director General submit appropriate lan-
                               guage to the Bureau of Diplomatic Security to amend 12 Foreign
                               Affairs Manual.

                                 Recommendation 12: We recommend that the Bureau of Dip-
                                 lomatic Security amend 12 Foreign Affairs Manual 600 to specify
                                 how the Department will implement the Computer Security Act
                                 of 1987, National Institute of Standards and Technology, U.S.
                                 Office of Personnel Management, and National Security Tele-
                                 communications and Information Systems Security Committee
                                 requirements for individual and organizational cyber security
                                 awareness, training, and accountability involving minimum-es-
                                 sential automated information infrastructure security.
OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                         31


                                  UNCLASSIFIED
                   UNCLASSIFIED


                   Comments by the Bureau of Diplomatic Security: The Bu-
               reau commented that the authorities noted by the OIG are cur-
               rently referenced in 12 Foreign Affairs Manual 600 We agree the
               authorities cited in Recommendation 12 are named in the manual,
               but neither the manual nor any other document of which we are
               aware specifies how the Department will implement those require-
               ments of the authorities for individual and organizational cyber se-
               curity awareness, training, and accountability involving minimum-
               essential cyber infrastructure security.

                Recommendation 13: We recommend that the Bureau of Dip-
                lomatic Security amend 12 Foreign Affairs Manual 600 to require
                that users be informed of, and acknowledge, their automated
                information security responsibilities prior to being granted ac-
                cess to Department systems.


                   Comments by the Bureau of Diplomatic Security: The
               Bureau concurred that 12 Foreign Affairs Manual 600 should ad-
               dress the Department’s need to protect itself by requiring users to
               acknowledge their responsibilities prior to accessing its systems.
               The Bureau said the requirement would be included in a future revi-
               sion of the Manual.



                Recommendation 14: We recommend the Bureau of Diplo-
                matic Security publish criteria for role- and access-based auto-
                mated information systems security training, and for testing us-
                ers for minimum levels of understanding of the automated in-
                formation systems security criteria that apply to their roles and
                access levels. These Automated Information Systems Security
                Training Guidelines should comply with 5 Code of Federal
                Regulations Part 930, Subpart C, National Institute of Standards
                and Technology Special Publication 800-16, National Security
                Telecommunications and Information Systems Security Commit-
                tee, and other applicable Federal Government directives and
                standards.

                  Comments by the Bureau of Diplomatic Security: The
               Bureau concurred with Recommendation 14.




32   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                   UNCLASSIFIED
                                  UNCLASSIFIED



                                 Recommendation 15: We recommend the Bureau of Diplo-
                                 matic Security amend 12 Foreign Affairs Manual 600 to require
                                 that users demonstrate adequate understanding of their auto-
                                 mated information systems security responsibilities, based on the
                                 Department’s Automated Information Systems Security Training
                                 Guidelines, within 30 days of being granted access to systems,
                                 and at least annually thereafter. This recommendation is based
                                 on the assumption that the Bureau will complete the Guidelines
                                 as it has agreed to do in Recommendation 14.

                                   Comments by the Bureau of Diplomatic Security: The Bu-
                               reau agreed with Recommendation 15.
                                   Comments by the Bureau of Information Resource
                               Management: The CIO suggested we consider removing this rec-
                               ommendation unless we are more specific about how users would
                               demonstrate adequate understanding of their responsibilities. As
                               there is more than one way to achieve the recommendation, we be-
                               lieve the Bureau of Diplomatic Security should make this decision
                               based on its assessment of the available choices.

                                  Recommendation 16: We recommend that the Bureau of Dip-
                                 lomatic Security amend 12 Foreign Affairs Manual 600 to require
                                 that users receive periodic and threat-specific continuing and
                                 refresher security training for automated information systems.20


                                   Comments by the Bureau of Diplomatic Security: The Bu-
                               reau agreed with Recommendation 16, and stated that 12 Foreign
                               Affairs Manual 600 will be amended to require that users receive
                               periodic and threat-specific continuing and refresher security train-
                               ing for automated information systems.




                                   20
                                       Although providing user security awareness training at posts is the responsi-
                               bility of the Information System Security Officer, general security awareness train-
                               ing is the responsibility of the Regional or Post Security Officers. However, with
                               the agreement of their Information System and Regional Security Officers, posts
                               may elect to incorporate user awareness training into general personnel security brief-
                               ings.


OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                                      33


                                  UNCLASSIFIED
                   UNCLASSIFIED



                Recommendation 17: We recommend the Bureau of Diplo-
                matic Security amend 12 Foreign Affairs Manual 600 to require
                executive or principal officers of all posts, bureaus, and offices
                to annually certify to the Chief Information Officer and the Bu-
                reau of Diplomatic Security their compliance with the
                Department’s Automated Information Systems Security Training
                Guidelines developed by the Bureau of Diplomatic Security.

                    Comments by the Bureau of Diplomatic Security: The
               Bureau agreed with Recommendation 17 on the basis that certifica-
               tion can be a means of ensuring that documentation of user brief-
               ings is accurately maintained at posts and other offices. Cyber secu-
               rity assessments conducted by the Bureau and the OIG will mea-
               sure the level of compliance. The Bureau also noted the posts
               could use this process to identify training deficiencies and assist the
               Bureau in establishing priorities for its training resources.




34   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                   UNCLASSIFIED
                                  UNCLASSIFIED



List of Recommendations

                               Recommendation 1: We recommend the Assistant Secretary for
                                 International Narcotics and Law Enforcement Affairs, acting as
                                 the Foreign Affairs Functional Coordinator, seek to have the Na-
                                 tional Security Council Policy Coordination Committee on
                                 Counter-Terrorism and National Preparedness, which incorpo-
                                 rates the Subgroup on International Cooperation of the NSC
                                 Critical Infrastructure Coordination Group, expand its approach
                                 to international critical infrastructure protection. This approach
                                 should include:
                                   • coordinating the efforts of U.S. Government sector leaders to
                                     provide critical infrastructure protection information and
                                     assistance to a wide range of friendly countries requesting
                                     such assistance,
                                   • focusing the efforts of U.S. Government sector leaders,
                                     Department missions, trade and business groups, and
                                     international organizations on actively promoting critical
                                     infrastructure protection preventative measures,
                                   • encouraging multilateral cooperation, contingency planning,
                                     and open exchange of public information with the widest
                                     possible range of friendly countries and international
                                     organizations,
                                   • supporting Department of State posts in engaging foreign
                                     governments in joint efforts to prevent or otherwise solve
                                     critical infrastructure protection problems, and
                                   • using the expertise and resources of the International
                                     Information Programs Coordinator in developing and
                                     implementing the Working Group’s outreach efforts.

                               Recommendation 2: We recommend the Assistant Secretary for
                                 International Narcotics and Law Enforcement Affairs, acting as
                                 the Foreign Affairs Functional Coordinator, work with U.S. Gov-
                                 ernment and nongovernmental organizations to provide friendly
                                 foreign governments with opportunities for obtaining cyber law
                                 enforcement training and technical assistance.




OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                     35


                                  UNCLASSIFIED
                   UNCLASSIFIED


               Recommendation 3: We recommend the Assistant Secretary for
                 International Narcotics and Law Enforcement Affairs, acting as
                 the Foreign Affairs Functional Coordinator, work with the De-
                 partment of Justice to identify and disseminate through posts
                 more efficient and effective communications channels for pro-
                 cessing foreign governments investigative assistance requests,
                 and improved procedures for gaining more timely access to evi-
                 dence, that foreign law enforcement entities can use to enhance
                 their investigations of cyber crimes involving United States enti-
                 ties and individuals.

               Recommendation 4: We recommend the Chief Information Of-
                 ficer and the Assistant Secretary for Diplomatic Security address
                 the Department’s foreign operations in subsequent critical infra-
                 structure protection plans and vulnerability assessments to deter-
                 mine what, if any, overseas minimum-essential cyber infrastruc-
                 ture should be subject to vulnerability assessments. In doing so,
                 Department officials should include representatives of other
                 agencies having an overseas presence in developing the overseas
                 portion of the plans, and conducting and assessing the overseas
                 portion of the vulnerability assessments as appropriate.

               Recommendation 5: We recommend the Bureau of Diplomatic
                 Security schedule and conduct security controls evaluations of
                 all minimum-essential cyber infrastructures at least once every 3
                 years, and whenever there are significant changes to minimum-
                 essential cyber infrastructure, both as required by OMB Circular
                 No. A-130, Appendix III.

               Recommendation 6: We recommend the Bureau of Diplomatic
                 Security modify 12 Foreign Affairs Manual 600, and the Bureau
                 of Information Resource Management amend the Critical Infra-
                 structure Protection Plan, to require periodic security control
                 evaluations of all minimum-essential cyber infrastructure at least
                 once every 3 years.

               Recommendation 7: We recommend the Chief Information Of-
                 ficer and Bureau of Diplomatic Security ensure that subsequent
                 critical infrastructure protection plans and vulnerability assess-
                 ments address minimum-essential interagency infrastructure vul-
                 nerabilities.




36   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                   UNCLASSIFIED
                                  UNCLASSIFIED


                               Recommendation 8: We recommend the Assistant Secretary for
                                 Diplomatic Security, Chief Information Officer, and the Direc-
                                 tor of the Foreign Service Institute jointly develop and imple-
                                 ment interagency critical infrastructure protection practices and
                                 procedures training and exercises that meets the requirements of
                                 Presidential Decision Directive 63.

                               Recommendation 9: We recommend that the Bureau of Diplo-
                                 matic Security amend 12 Foreign Affairs Manual 600 to require
                                 that it be given the names of Information System Security Offic-
                                 ers, and their alternates, in a timely manner, and that the Bureau
                                 of Diplomatic Security ensure all designees have sufficient expe-
                                 rience and training.

                               Recommendation 10: We recommend the Director General of the
                                 Foreign Service and Director of Human Resources submit lan-
                                 guage to the Bureau of Diplomatic Security amending 12 For-
                                 eign Affairs Manual 600 to require that all job and work require-
                                 ments statements include individual responsibilities for mini-
                                 mum-essential cyber infrastructure security.

                               Recommendation 11: We recommend that the Director General
                                 of the Foreign Service and Director of Human Resources sub-
                                 mit language to the Bureau of Diplomatic Security amending 12
                                 Foreign Affairs Manual 600 to require that all supervisors assess
                                 the extent to which all employees accomplish their individual
                                 roles and responsibilities for minimum-essential cyber infrastruc-
                                 ture security.

                               Recommendation 12: We recommend that the Bureau of Diplo-
                                 matic Security amend 12 Foreign Affairs Manual 600 to specify
                                 how the Department will implement the Computer Security Act
                                 of 1987, National Institute of Standards and Technology, U.S.
                                 Office of Personnel Management, and National Security Tele-
                                 communications and Information Systems Security Committee
                                 requirements for individual and organizational cyber security
                                 awareness, training, and accountability involving minimum-es-
                                 sential automated information infrastructure security.

                               Recommendation 13: We recommend that the Bureau of Diplo-
                                 matic Security amend 12 Foreign Affairs Manual 600 to require
                                 that users be informed of, and acknowledge, their automated
                                 information security responsibilities prior to being granted ac-
                                 cess to Department systems.

OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                     37


                                  UNCLASSIFIED
                   UNCLASSIFIED


               Recommendation 14: We recommend the Bureau of Diplomatic
                 Security publish criteria for role- and access-based automated
                 information systems security training, and for testing users for
                 minimum levels of understanding of the automated information
                 systems security criteria that apply to their roles and access lev-
                 els. These Automated Information Systems Security Training
                 Guidelines should comply with 5 Code of Federal Regulations
                 Part 930, Subpart C, National Institute of Standards and Tech-
                 nology Special Publication 800-16, National Security Telecom-
                 munications and Information Systems Security Committee, and
                 other applicable Federal Government directives and standards.

               Recommendation 15: We recommend the Bureau of Diplomatic
                 Security amend 12 Foreign Affairs Manual 600 to require that
                 users demonstrate adequate understanding of their automated
                 information systems security responsibilities, based on the
                 Department’s Automated Information Systems Security Training
                 Guidelines, within 30 days of being granted access to systems,
                 and at least annually thereafter. This recommendation is based
                 on the assumption that the Bureau will complete the Guidelines
                 as it has agreed to do in Recommendation 14.

               Recommendation 16: We recommend that the Bureau of Diplo-
                 matic Security amend 12 Foreign Affairs Manual 600 to require
                 that users receive periodic and threat-specific continuing and
                 refresher security training for automated information systems.

               Recommendation 17: We recommend the Bureau of Diplomatic
                 Security amend 12 Foreign Affairs Manual 600 to require execu-
                 tive or principal officers of all posts, bureaus, and offices to an-
                 nually certify to the Chief Information Officer and the Bureau
                 of Diplomatic Security their compliance with the Department’s
                 Automated Information Systems Security Training Guidelines
                 developed by the Bureau of Diplomatic Security.




38   OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001


                   UNCLASSIFIED
                                  UNCLASSIFIED



A bbr
  bbreeviations

                     CIO       Chief Information Officer
                     CIP       Critical Infrastructure Protection
                    CIPP       Critical Infrastructure Protection Plan
             Department        Department of State
                  DGHR         Director General of the Foreign Service and Director of Human
                               Resources
                      DS       Bureau of Diplomatic Security
                    FAM        Foreign Affairs Manual
                     INL       International Narcotics and Law Enforcement Affairs
                     IRM       Bureau of Information Resource Management
                    OIG        Office of Inspector General
                    OMB        Office of Management and Budget
                    OPM        U.S. Office of Personnel Management
                    NSC        National Security Council
                    NIST       National Institute of Standards and Technology
                NSTISSC        National Security Telecommunications and Information Systems
                               Security Committee
                 NTISSD        National Telecommunications and Information Systems Security
                               Directive
                NSTISSI        National Security Telecommunications and Information Systems
                               Security Instructions
                    PDD        Presidential Decision Directive




OIG Report No. 01-IT-R-044, Critical Infrastructure Protection - June 2001                 39


                                  UNCLASSIFIED
